<html>
<title> - CONSUMERS SHORTCHANGED? OVERSIGHT OF THE JUSTICE DEPARTMENT'S MORTGAGE LENDING SETTLEMENTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                        CONSUMERS SHORTCHANGED?
                 OVERSIGHT OF THE JUSTICE DEPARTMENT'S
                      MORTGAGE LENDING SETTLEMENTS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                           REGULATORY REFORM,
                      COMMERCIAL AND ANTITRUST LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2015

                               __________

                           Serial No. 114-16

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
         
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

         
      
       


      Available via the World Wide Web: http://judiciary.house.gov
      
      
      
      
      
      
      
                            U.S. GOVERNMENT PUBLISHING OFFICE
     93-280 PDF                      WASHINGTON : 2015             


_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001    
      
      
      
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

    Subcommittee on Regulatory Reform, Commercial and Antitrust Law

                   TOM MARINO, Pennsylvania, Chairman

                 BLAKE FARENTHOLD, Texas, Vice-Chairman

DARRELL E. ISSA, California          HENRY C. ``HANK'' JOHNSON, Jr.,
DOUG COLLINS, Georgia                  Georgia
MIMI WALTERS, California             SUZAN DelBENE, Washington
JOHN RATCLIFFE, Texas                HAKEEM JEFFRIES, New York
DAVE TROTT, Michigan                 DAVID N. CICILLINE, Rhode Island
MIKE BISHOP, Michigan                SCOTT PETERS, California

                      Daniel Flores, Chief Counsel
                      
                      
                      
                      
                      
                      
                      
                      
                      
                                (II)                     
                      
                      
                      
                      
                      
                      
                      
                      
                      
                            C O N T E N T S

                              ----------                              

                           FEBRUARY 12, 2015

                                                                   Page

                           OPENING STATEMENTS

The Honorable Tom Marino, a Representative in Congress from the 
  State of Pennsylvania, and Chairman, Subcommittee on Regulatory 
  Reform, Commercial and Antitrust Law...........................     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     7

                               WITNESSES

Geoffrey Graber, Deputy Associate Attorney General and Director, 
  RMBS Working Group of the Financial Fraud Enforcement Task 
  Force, U.S. Department of Justice, Washington, DC
  Oral Testimony.................................................    21
  Prepared Statement.............................................    24
Paul J. Larkin, Jr., Senior Legal Research Fellow, Edwin Meese 
  III Center for Legal and Judicial Studies, The Heritage 
  Foundation, Washington, DC
  Oral Testimony.................................................    49
  Prepared Statement.............................................    52
Theodore H. Frank, Founder, Center for Class Action Fairness, 
  Washington, DC
  Oral Testimony.................................................    69
  Prepared Statement.............................................    71
Cornelia Mrose, CEO, Compass Films of New York LLC, Westchester, 
  NY
  Oral Testimony.................................................    85
  Prepared Statement.............................................    88
Alan M. White, Professor of Law, CUNY School of Law, New York, NY
  Oral Testimony.................................................    92
  Prepared Statement.............................................    94

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................     4
Prepared Statement of the Honorable Henry C. ``Hank'' Johnson, 
  Jr., a Representative in Congress from the State of Georgia, 
  and Ranking Member, Subcommittee on Regulatory Reform, 
  Commercial and Antitrust Law...................................     8
Material submitted by the Honorable Tom Marino, a Representative 
  in Congress from the State of Pennsylvania, and Chairman, 
  Subcommittee on Regulatory Reform, Commercial and Antitrust Law    10
Material submitted by the Honorable Hakeem Jeffries, a 
  Representative in Congress from the State of New York, and 
  Member, Subcommittee on Regulatory Reform, Commercial and 
  Antitrust Law..................................................    37
Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................   103
Material submitted by the Honorable Tom Marino, a Representative 
  in Congress from the State of Pennsylvania, and Chairman, 
  Subcommittee on Regulatory Reform, Commercial and Antitrust Law   114

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Questions for the Record from Geoffrey Graber, Deputy 
  Associate Attorney General and Director, RMBS Working Group of 
  the Financial Fraud Enforcement Task Force, U.S. Department....   122
Response to Questions for the Record from Alan M. White, 
  Professor of Law, CUNY School of Law, New York, NY.............   127
Letter from Lautaro ``Lot'' Diaz, Vice President, Housing and 
  Community Development, National Council of La Raza (NCLR)......   131
Prepared Statement on Behalf of the Association of Mortgage 
  Investors (AMI)................................................   138


CONSUMERS SHORTCHANGED? OVERSIGHT OF THE JUSTICE DEPARTMENT'S MORTGAGE 
                          LENDING SETTLEMENTS

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2015

                       House of Representatives,

                  Subcommittee on Regulatory Reform, 
                      Commercial and Antitrust Law

                      Committee on the Judiciary,

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:32 a.m., in 
room 2141, Rayburn Office Building, the Honorable Tom Marino 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Marino, Goodlatte, Collins, 
Ratcliffe, Trott, Bishop, Conyers, and Jeffries.
    Also present: Representative King.
    Staff present: (Majority) Dan Huff, Counsel; Andrea 
Lindsey, Clerk; and (Minority) Slade Bond, Counsel.
    Mr. Marino. The Subcommittee on Regulatory Reform, 
Commercial and Antitrust Law will come to order. Without 
objection, the Chair is authorized to declare recesses of the 
Committee at any time.
    We welcome everyone to today's hearing on Consumers 
Shortchanged? Oversight of the Justice Department's Mortgage 
Lending Settlements. I will recognize myself for a brief 
opening statement.
    Welcome to this hearing entitled ``Consumers Shortchanged? 
Oversight of the Justice Department's Mortgage Lending 
Settlements.'' At issue are DOJ's high profile settlements with 
JPMorgan, Citi, and Bank of America over their activities 
related to the financial crisis. The Committee is concerned 
that too much of the settlement money is not making it directly 
to consumers genuinely harmed.
    The Citi and Bank of America settlements require the banks 
to donate at least $150 million and as much as over a half 
billion dollars to activist groups. To be sure, those groups do 
engage in housing counseling and related activities, but those 
activities are most helpful to families still in their homes. 
What about the millions of Americans who have already lost 
their homes?
    I know the Department of Justice responds that the 
mandatory donation provisions represent only a small portion of 
the consumer relief packages which total in the billions, but 
tell that to Jeff and Robin Brown. After the Chrysler plant in 
Newark, Delaware closed in 2009, they fell on hard times. 
Frustrating attempts to renegotiate their mortgage with Citi 
was were fruitless. They lost $3,000 to a loan assistance scam, 
then they received an eviction notice.
    The request for two extra weeks so Robin could recover from 
a setback with her multiple sclerosis was denied. So they 
looked at what they could and they took what they were able and 
departed the home they had saved for and lived in for 8 years. 
As a result of the settlement, they got a check from Citi for 
$500.
    Their experience is detailed, along with others, in a 
Delaware online story titled ``Some Who Lost Homes Feel 
Forgotten in Foreclosure Settlements.'' They are upset that the 
State of Delaware is poised to spend the remaining $36.6 
million on community service projects instead of actual 
victims. I want to know why DOJ did not do more to ensure that 
States receiving settlement money put victims before pet 
projects.
    The evidence is not nearly anecdotal. The story noted that 
of 32,000 homeowners foreclosed upon, only about a thousand 
ever received compensation. Most checks were for less than 
$1,500. That is just in Delaware. Since 2008, there have been 
4.9 million foreclosures nationwide. It is a cruel irony that 
those who have lost the most to the foreclosure crisis seem to 
be helped the least from DOJ settlements.
    Loan modifications cannot assist those already evicted. 
They should have the strongest claim to the limited amount of 
hard dollars that the banks are paying out. Instead, the cash 
is going to activist groups because they work with victims of 
the housing crisis. I guess this means the Administration does 
believe in trickle-down economics so long as the money is 
trickling through activist groups. I hope these groups at least 
do good work because Congress already funds some of them 
through Federal grants.
    But therein lies another problem. It is the role of the 
Congress, not the executive, to allocate funds. This is a core 
feature of our constitutional system of separation of powers. 
James Madison called Congress' appropriations power ``the most 
effectual weapon.'' He noted it was the power of the purse that 
allowed the British Parliament to reduce ``the overgrown 
prerogatives of the other branches of government.''
    Also oversight is lacking. For example, the Legal Services 
Corporation, which provides funding for legal aid, has a 
dedicated oversight section to monitor grantees. The bank 
settlement provides no such oversight to ensure the recipient 
of donations use them as intended. If the money is not being 
used to lift up those most affected by the housing crisis, 
should we not at least be concerned about how it is spent? In 
short, the mandatory donation provisions also raise a host of 
legal and policy issues, including potential violations of the 
Miscellaneous Receipts Act and internal DOJ policies.
    I thank Deputy Assistant Attorney Graber and all of our 
witnesses for attending, and I look forward to the discussion. 
Unfortunately, my good friend, Mr. Johnson, is not here today 
because he has the flu, and he is the Ranking Member of the 
Subcommittee. But we are also honored and fortunate enough to 
have the Ranking Member of the full Committee, Mr. Conyers. So 
I am now going to ask Mr. Conyers to make an opening statement 
if he wishes to.
    Mr. Conyers. Thank you, Mr. Chairman. I do wish to. Members 
of the Committee, the stated purpose of today's hearing is to 
determine whether there has been a misuse of mortgage 
settlement funds by the Administration for its so-called ``pet 
projects.'' In truth, however, this really is a hearing, a 
misguided hearing, a witch hunt, that has absolutely nothing to 
do with helping the millions of hardworking Americans who were 
swindled by unscrupulous and predatory mortgage lenders and 
mortgage services. Nor does it have anything to do with 
addressing the massive fraud committed by the securities 
industry that nearly led to the financial collapse of our 
Nation's economy.
    Rather than focus on these critical issues, the majority 
has cited the so-called activist organizations and the Justice 
Department as the perpetrators worthy of this hearing. And who 
exactly are these entities? They are housing counseling 
programs administered at national, State, and local levels by 
service providers subject to a rigorous certification process 
by the United States Department of Housing and Urban 
Development. They include such organizations as the New York 
State Office for People with Developmental Disabilities, the 
Michigan State University Extension Service, the New York City 
Commission on Human Rights, and NeighborWorks America.
    So let us take a look in depth at one of these 
organizations. NeighborWorks is chartered by Congress. Its 
board of directors, whose membership is determined by statute, 
consists of the heads of the financial regulatory agencies, who 
are presidential appointees subject to Senate confirmation. In 
fact, Congress in 2007 designated NeighborWorks America to 
administer the National Foreclosure Mitigation Counseling 
Program pursuant to which this organization has helped more 
than 1.725 million homeowners. That is almost 2 million 
homeowners.
    If the majority really cared about the victims of the 
foreclosure crisis, we would be holding a hearing on either the 
mortgage crisis that still grips many parts of our Nation, or 
on how Congress could better assist those millions of Americans 
who still are at risk of losing their homes. Now, in stark 
contrast, when I was Chairman of this Committee, we held nine 
hearings and two field briefings examining the causes and 
impact of the foreclosure crisis as well as potential 
solutions. Over the course of those hearings, the Committee 
heard from a United States senator, various Members of the 
House, representatives from the Treasury Department, the 
Comptroller of the Currency, the Federal Housing Finance 
Agency, bankruptcy judges, nationally recognized economists, 
leading academics, victims of predatory mortgage lending, and 
many more voices.
    Finally, I am particularly concerned that the majority has 
unfairly singled out the National Council of La Raza, which is 
the Nation's largest Hispanic civil rights and advocacy 
organization. The Chairman of this Committee and the Chairman 
of the Financial Services Committee in a letter to the Justice 
Department last November characterized La Raza as ``activist 
group that stands to benefit from the mortgage settlement 
agreements with Citicorp and the Bank of America.'' As detailed 
in a response from La Raza, which I ask unanimous consent to 
include in today's hearing record, there is absolutely no truth 
to this allegation.
    [The information referred to follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                               __________
    Mr. Conyers. In fact, La Raza has not received a single 
penny from these settlements, and it did not proactively seek 
to be designated as a recipient of these funds. La Raza is not 
even named specifically in either of these settlement 
agreements as a designated recipient. And if it was to receive 
any monies under these agreements, La Raza has a firewall 
between its housing counseling activities and its advocacy 
activities, as well as accounting standards in place to ensure 
such a separation. This information was readily available had 
the majority simply reached out to La Raza to confirm its 
allegations before putting them in writing to the Justice 
Department.
    Thank the witnesses for joining us here today, and, Mr. 
Chairman, I yield back the balance of my time.
    Mr. Marino. Thank you, Congressman Conyers. It is my 
pleasure now to recognize the Chairman of the full Judiciary 
Committee, the gentleman from Virginia, Congressman Goodlatte, 
for his opening statement.
    Mr. Goodlatte. Thank you, Mr. Chairman. This hearing opens 
a pattern or practice investigation into the Justice Department 
mortgage lending settlements. The concern is that DOJ may have 
systematically subverted Congress' budget authority by using 
settlements to funnel money to activist groups. The evidence is 
a progression of startling terms in the DOJ's mortgage banking 
settlements. It began with the JPMorgan settlement that merely 
offered credit for donations to community redevelopment groups. 
Next came Citi and Bank of America settlements requiring $150 
million in donations to housing nonprofits.
    These donations earned double credit against the banks' 
overall obligations. Meanwhile, credit for direct forms of 
consumer relief remain dollar for dollar. Bank of America's 
settlement also required it to set aside $490 million to pay 
potential consumer tax liability arising from loan 
modifications. Should Congress again extend the non-taxable 
treatment of home loan forgiveness, the money does not revert 
to the bank. Instead it flows to activist groups, like 
NeighborWorks America, which has been described as funding ``a 
national network of left wing community organizers operating in 
the mold of ACORN.''
    All told, DOJ has directed as much as half a billion 
dollars to activist groups entirely outside of the 
congressional budget and oversight process. DOJ will say that 
the groups receiving donations provide relief to homeowners. 
Even assuming this housing-related work is entirely non-
partisan, money is fungible. Donations to the housing arm of 
any recipient would free up funds for the recipient to engage 
in more controversial activism in other areas. Furthermore, the 
Miscellaneous Receipts Act, or MRA, requires that money 
received by the government from any source be deposited in the 
Treasury. Directing a defendant to pay money directly to a 
third party interest group is simply an end run around the law.
    DoJ's own internal guidance documents acknowledge the 
potential for abuse when settlements require donations to third 
parties. The U.S. Attorney's Manual says that the practice is 
restricted because it can create actual or perceived conflicts-
of-interest and/or other ethical issues. It was almost entirely 
banned in 2008 due to instances of perceived abuse.
    Exception was made for environmental settlements in view of 
robust guidance issued by DOJ's Environment and Natural 
Resources Division. However, to the extent that guidance is the 
basis for an exemption, DOJ's banking settlements violate it. 
The guidance requires a mechanism to ensure that any party 
receiving the funds spends them in a manner consistent with the 
intent of the community service requirement. There is no such 
oversight in the DOJ's banking settlements. The monitor is 
responsible only for the bank's compliance, not how the 
activist groups who receive donations use them. Related 
guidance also caps credit for donations to community service 
projects at dollar for dollar.
    Even more troubling, the guidelines state that community 
service cannot be of such a nature that it provides additional 
resources for the performance of an activity for which Congress 
specifically has appropriated funds. This ensures that the 
settlement does run not afoul of the Miscellaneous Receipts Act 
by unilaterally augmenting a congressional appropriation.
    Congress specifically funds the Department of Housing and 
Urban Development's Housing Counseling Assistance Program. In a 
press release, La Raza, one of the largest grant recipients 
under the program, lamented that Congress cut funding from $88 
million to $45 million. It subsequently praised DOJ bank 
settlements, which required $30 million in donations 
specifically to HUD-approved housing counseling agencies. Thus, 
DOJ's settlements appear to restore most of the funding that 
Congress specifically cut.
    For DOJ to funnel money to third parties through 
settlements this way may violate the law and is undoubtedly bad 
policy. The purpose of enforcement actions is punishment and 
redress to actual victims. Carrying that concept to communities 
at large or activist community groups, however worthy, is a 
matter for the legislative branch and is not to be conducted at 
the unilateral discretion of the executive.
    I thank all of our witnesses for appearing and look forward 
to their testimony today. Thank you, Mr. Chairman.
    Mr. Marino. Thank you, Chairman. Without objection, other 
Members' opening statements will be made part of the record.
    And now just to do some little detail work, I think Mr. 
Conyers wants to enter something in the record.
    Mr. Conyers. Yes. I would like to put our colleague, Hank 
Johnson's, statement in the record. And I ask unanimous consent 
to have his statement put into the record, please.
    Mr. Marino. Without objection, so ordered.
    [The prepared statement of Mr. Johnson follows:]
 Prepared Statement of the Honorable Henry C. ``Hank'' Johnson, Jr., a 
   Representative in Congress from the State of Georgia, and Ranking 
Member, Subcommittee on Regulatory Reform, Commercial and Antitrust Law
    Thank you, Chairman Marino.
    Built on the back of predatory loans, toxic mortgage 
securitization, and regulatory failure, the mortgage-foreclosure crisis 
has blighted entire cities across the country while destabilizing the 
home market and countless other industries.
    But the effects of foreclosures go far beyond simple economics.
    Since the start of the Great Recession, foreclosures have sent 
shockwaves throughout entire communities, taking children out of 
schools, pulling families and friends apart, undermining religious 
congregations, and creating other forms of social instability.
    Although recent data indicates that the foreclosure-filing rate is 
dropping to its lowest level since 2006, these positive figures do not 
capture the continued hardship of low-income and minority and 
households, which lag far behind national homeownership rates. Andrea 
Levere, the president of the Corporation for Enterprise Development, 
notes that this trend threatens ``to exclude an increasing percentage 
of Americans from our mainstream financial systems.''
    We can't allow this to happen.
    It is therefore incumbent on the federal government to not only 
hold fraudulent corporations accountable, but to also require that they 
meaningfully help the millions of consumers they harmed.
    Today's hearing concerns settlement agreements between the Justice 
Department and JPMorgan, Citigroup, and Bank of America--companies that 
each admitted to fraudulently packaging, marketing, and selling 
residential-mortgage back securities, even where the banks knew the 
loans were defective.
    These settlements amply demonstrate the fraud that pervaded every 
level of the securities industry, fraud that substantially contributed 
to the mortgage-foreclosure crisis and recession.
    In addition to significant civil penalties, each of these 
agreements contains consumer-relief provisions designed to provide 
much-needed relief to millions of Americans affected by the fraudulent 
sale of toxic securities. These provisions of the agreement require the 
banks to provide billions in first-lien principal forgiveness to help 
families who are underwater on a mortgage to stay in their homes.
    When homeowners fall behind in their mortgage payments, it is often 
a major task to bring them current. For that reason alone, mortgage 
modifications--such as those under the settlement agreements--are a 
standard tool to bring homeowners in good standing with their home loan 
and stop the foreclosure process.
    Educating and assisting consumers is also a critical tool in 
foreclosure prevention. The Department of Housing and Urban Development 
(HUD) has documented that if a consumer works with a HUD-approved 
housing counseling agency, the odds of a favorable outcome are almost 
two-times greater.
    Two of the Justice Department's settlements also require the 
settling banks to donate funds toward neighborhood reinvestment 
activities, which include donations to HUD-approved Housing Counseling 
Agencies, state-based Interest on Lawyer Trust Accounts organizations, 
and Community Development Financial Institutions.
    Housing counseling agencies offer a critical education component to 
helping consumers avoid default and foreclosure by identifying the 
documents the mortgage company needs from the homeowner and contacting 
the mortgage company on the homeowner's behalf.
    As we search for ways to avoid another mortgage crisis while 
repairing the incalculable damage that has already occurred, it is 
essential that we use every tool to keep families in their homes.
    Although I wish that the Justice Department's settlements had 
required more of the banks that contributed directly to the plight of 
so many, I am confident that these agreements will do much to help 
millions of consumers across the country.
    I yield back.
                               __________

    Mr. Conyers. Thank you.
    Mr. Marino. And I am asking unanimous consent to enter into 
the record the following: number one, a letter to the Committee 
from the predominant legal scholar, Richard A. Epstein, 
outlining his view that appropriations to community groups 
should not be made part of the settlement process; number two, 
a statement for the record from the U.S. Chamber of Commerce 
and the U.S. Chamber Institute for Legal Reform noting that 
directing private parties to make payments to other private 
parties as part of settlement is, in effect, creating a Federal 
grant program that is administered by the agencies without 
statutory authorization; and finally, number three, a memo from 
the organization, Cause of Action, entitled ``Investigation of 
Bank of America Settlement Receipts, NeighborWorks America.''
    Hearing no objections, so ordered.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                           
                               
                               __________
    Mr. Marino. We have a very distinguished member today from 
the Department of Justice. Welcome, sir, and I will begin by 
swearing you in. Would you please stand and raise your right 
hand, please?
    Do you swear that the testimony you are about to give is 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Mr. Graber. I do.
    Mr. Marino. Thank you. Let the record reflect that the 
witness has responded in the affirmative, and please take a 
seat.
    Mr. Geoffrey Graber is a deputy assistant attorney general 
and the director of Residential Mortgage-Backed Securities 
Working Group of the Financial Fraud Enforcement Task Force for 
the United States Department of Justice. Mr. Graber was an 
associate for the San Francisco branch of Morrison & Foerster 
prior to joining the Justice Department's Civil Division. At 
the litigation department of Morrison & Foerster, Mr. Graber 
specialized in consumer class actions, securities fraud, 
product defects, tort, contract law, and general civil 
litigation.
    Mr. Graber is a graduate of the University of Southern 
California Law School. And I also understand that you do a 
pretty good Alec Baldwin/Glenn Close imitation?
    Mr. Graber. Yes.
    Mr. Marino. We may need that some time through the 
testimony here, sir. The witness' written statement will be 
entered into the record in its entirety, and I ask if you would 
please summarize your opening testimony in 5 minutes or less. 
And to help you stay within the guidelines, there is a timing 
light in front of you, and when the light switches from green 
to yellow, it indicates that you have 1 minute to conclude your 
testimony. When the light turns to red, it indicates that your 
5 minutes have expired. And I will just politely, because 
sometimes it is difficult to keep an eye on the lights and 
talk. So I will just politely tap here to give you an 
indication that your time has run out, and please sum up at 
that point.
    I now recognize Mr. Graber to give his opening statement.

TESTIMONY OF GEOFFREY GRABER, DEPUTY ASSOCIATE ATTORNEY GENERAL 
    AND DIRECTOR, RMBS WORKING GROUP OF THE FINANCIAL FRAUD 
ENFORCEMENT TASK FORCE, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, 
                               DC

    Mr. Graber. Thank you. Chairman Marino, Chairman Goodlatte, 
and Ranking Member Conyers, and Members of the Subcommittee, 
thank you for inviting me here and for providing the Department 
of Justice the opportunity to appear at today's hearing to 
describe a series of settlements that have arisen out of the 
Department's efforts to address fraud in connection with the 
packaging and sale of residential mortgage-backed securities.
    In November 2009, the Financial Fraud Enforcement Task 
Force was established in order to strengthen the efforts of the 
Department of Justice to pursue potential misconduct committed 
in connection with the financial crisis. And in January 2012, 
the Department of Justice formed the Residential Mortgage-
Backed, or RMBS, Working Group, in the task force to 
investigate those responsible for misconduct contributing to 
the financial crisis through the pooling and sale of 
residential mortgage-backed securities.
    The efforts of the RMBS Working Group have focused on 
achieving accountability from financial institutions that 
engaged in wrongdoing relating to residential mortgage-backed 
securities and, to the extent possible, bringing some measure 
of relief to homeowners who suffered as a result of the 
financial crisis. These goals reflect the fact that misconduct 
in the RMBS market impacted the entire financial system and the 
American economy as a whole.
    To date, the efforts of the RMBS Working Group have secured 
resolutions valued at more than $36.6 billion in penalties, 
compensation, and consumer relief to investors, victims, and 
the American people. These settlements each embody the goals 
spelled out in the formation of the RMBS Working Group.
    First, each settlement achieved accountability by requiring 
a significant and, in some cases, record monetary penalty, as 
well as a statement of facts acknowledging the evidence 
underlying the government's allegations. These penalties will 
hopefully serve to deter future misconduct, and the statements 
of fact serve as an acknowledgment by the banks to their 
shareholders and the American public of the misconduct 
uncovered by the Department of Justice.
    Second, each bank committed to provide many billions of 
dollars of consumer relief of a type that is designed to enable 
many Americans to stay in their homes. These consumer relief 
provisions provide an especially salient feature to these 
settlements. This type of relief likely could not have been 
ordered by a court even if the government has prevailed at 
trial. In general, the consumer relief component consists of a 
menu of different types of consumer relief, menus developed in 
consultation with the Department's law enforcement partners, 
including Federal regulatory agencies and states.
    In each of these resolutions, the settling bank can fulfill 
its obligations to implement consumer relief by undertaking the 
consumer relief set forth on the menu. The banks agreed to meet 
certain consumer relief targets. The agreements establish 
certain constraints on how the relief is to be provided. Beyond 
that, though, the banks have latitude to decide precisely how 
to satisfy their consumer relief obligations.
    For example, the Bank of America settlement provided for a 
total of $7 billion in consumer relief, including a minimum of 
$2.15 billion in first lien forgiveness calibrated to help 
homeowners who face the risk of default and foreclosure. Within 
this broad target, though, the bank has discretion to decide 
precisely how to provide such relief.
    As a second example, the various settlements all 
contemplate neighborhood reinvestment activities, a type of 
relief that includes the provision of certain kinds of 
foreclosure prevention assistance and other counseling 
activities. This is to be provided by certain categories of 
organizations chosen by the bank that will receive a directed 
donation to perform the types of activities specified in the 
agreements, such as foreclosure prevention and counseling 
activities.
    These include organizations that help veterans avoid 
foreclosure, organizations that deal with abandoned properties 
that can inhibit neighborhood recoveries or organizations to 
help prospective home purchases navigate the process of buying 
a home. With the single exception of IOLTAs, the banks choose 
which specific organizations receive these donations. The 
Department of Justice does not mandate that any money will go 
to any specific third party charity organization.
    The RMBS Working Group has achieved a great deal in 
fighting financial fraud. These efforts have resulted in record 
civil penalties, factual statements in civil cases that show an 
unprecedented level of accountability from the financial 
institutions and transparency to the marketplace, and 
meaningful consumer relief for the American people.
    Thank you once again for the opportunity to appear before 
you today. At this time, Mr. Chairman, I would be happy to 
address any questions you or Members of the Subcommittee may 
have.
    [The prepared statement of Mr. Graber follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
                               __________
    Mr. Marino. Thank you, Mr. Graber. And because the Chairman 
of the full Committee has to be in three places at once, I am 
going to defer to him for his questioning for 5 minutes. So, 
Chairman Goodlatte.
    Mr. Goodlatte. Mr. Chairman, thank you for your 
consideration. Mr. Graber, welcome. You are a litigator, so you 
know failure to provide discovery can trigger an order to a 
jury to draw an adverse inference. And that is what we are 
doing right now because I along with Chairman Hensarling of the 
Financial Services Committee requested all communications 
pertaining to the mandatory donations provisions in the bank 
settlements over 2 months ago, but we have yet to receive any 
responsive documents from the Department of Justice. When can 
we expect to receive that?
    Mr. Graber. Thank you, Mr. Chairman. I appreciate the 
concern, and I understand the concern. I can tell you that we 
are in process of reviewing documents that may be responsive to 
the Committee's request.
    Mr. Goodlatte. Will the Department of Justice claim any 
privileges over a significant percentage of the relevant 
documents?
    Mr. Graber. Well, because the review is ongoing, sitting 
here today, I cannot tell you whether or not there would be any 
type of assertion of privilege. But I can assure you that a 
review is ongoing, and----
    Mr. Goodlatte. Well, let me just add that this Committee 
will not stand silent, nor will, I am sure, the Financial 
Service Committee, and you can expect that this will escalate 
if you do not provide the documentation that we requested over 
2 months ago.
    Secondly, did anyone at the Department of Justice ever 
consider the serious appearance of impropriety in requiring 
banks to make available to activist organizations the lion's 
share of funding that Congress has previously cut off to them? 
That is one of the reasons why we want to see the 
communications. We want to know what considerations went into 
making this decision to take this action.
    Mr. Graber. Thank you, Mr. Chairman. Again, I understand 
the concern. And I can tell you that one of the reasons that 
the Department wanted to use a preexisting list, the one that I 
believe you are referring to, the HUD approved counseling 
agency list, is because that list is preexisting. The 
Department did not want to be in the business of picking and 
choosing which organization may or may not receive any funding 
under the agreement.
    Mr. Goodlatte. No, but it is the Congress' responsibility 
to appropriate funds, and the Congress' responsibility to be 
picking and choosing who gets appropriations for expenditures. 
And we want to know what connection there is between the fact 
that cuts were made and then apparently restored through a 
settlement.
    Mr. Graber. Well, Mr. Chairman, to my knowledge there was 
never any discussion of a decision by Congress to cut funding 
one way or another to various third party organizations and the 
negotiations that took place in the lead up to these 
settlements.
    Mr. Goodlatte. You do understand that the Constitution very 
specifically provides in Article 1 that no money shall be drawn 
from the Treasury but in consequence of appropriations made by 
law. And when you make a settlement and you require funds to be 
paid as part of a fine, a settlement, those funds are deposited 
into the Treasury. And if you make a decision to divert some of 
those funds before they ever get into the Treasury, we have 
very serious questions about whether you are attempting, 
through the Department of Justice, to fulfill the function of 
the Congress to appropriate funds.
    So please explain to us why you think the framers thought 
this was so important and your personal view of its role in the 
separation of powers.
    Mr. Graber. Mr. Chairman, the way these settlements were 
structured was that certain funds, namely the civil penalties, 
were deposited directly into the Treasury. These were the 
record civil FIRREA penalties that were obtained----
    Mr. Goodlatte. Well, we understand that.
    Mr. Graber. Right. The----
    Mr. Goodlatte. But other funds, which could have been a 
part of that settlement, said it is one lump sum and it goes 
into the Treasury. Instead it said pay us this money, and we 
order you to pay other money to other people.
    Mr. Graber. Right. So the other components to the 
settlement, in particular the monies that you are referring to 
that would go to the HUD approved counseling agencies, those 
funds were never diverted. They were a separate part of the 
settlements. There was the civil penalty component of the 
settlements. There are other components of the settlements, and 
then there is this small portion relating to the counseling 
agencies.
    Mr. Goodlatte. ``Small'' is a relative term when you are 
talking about $150 million, right?
    Mr. Graber. I am sorry?
    Mr. Goodlatte. I said ``small'' is a relative term when you 
are talking $150 million.
    Mr. Graber. Well, the $150 million is----
    Mr. Goodlatte. It is a lot of money to most people. I do 
not know how many thousands of additional people that were 
ostensibly being protected by this whole prosecution that would 
have been receiving additional direct help if the funding had 
gone into the Treasury as opposed to elsewhere.
    But first and foremost, once it went into the Treasury, 
then the elected representatives of the people would get to 
decide the most appropriate way to use those funds. It might be 
to reduce the $18 trillion debt of our country. It would make a 
small dent in that. There are lots of different things that 
could be done with that money if it had not been, I would 
argue, appropriated by the Department of Justice to go to 
places where the Congress had already made decisions that 
funding did not need to go in its larger fund.
    But the bottom line is get us the documents. If you want to 
assert what your position as to how this came down, get us the 
documents that show us what communications were made and how 
that was done, and get them to us expeditiously. Thank you, Mr. 
Chairman.
    Mr. Graber. Thank you.
    Mr. Marino. Thank you. The Chair now recognizes the Ranking 
Member of the full Committee, the gentleman from Michigan, 
Congressman Conyers.
    Mr. Conyers. Thank you, Mr. Chairman, and welcome, Mr. 
Graber. Would you please describe the fraudulent conduct of 
JPMorgan, Citigroup, Bank of America, that gave rise to 
settlement agreements? How does this conduct directly relate to 
the mortgage foreclosure crisis?
    Mr. Graber. Thank you, Congressman. The Department 
conducted extensive investigations in the lead-up to each of 
these settlements. And as outlined more fully in the statement 
of facts that accompanied each of the settlements, the 
Department's investigations revealed, generally speaking, that 
with respect to each of the financial institutions, these 
financial institutions made a variety of representations to 
RMBS investors, in particular that the securities that were 
collateralizing the--excuse me--the mortgages that were 
collateralizing the securities were underwritten generally in 
accordance with underwriting guidelines, that folks could repay 
the mortgages that were being taken out, that the income was 
verified or the income was accurately stated on the loan 
applications. They made a variety of representations like that.
    The Department's investigations revealed that the banks 
received information at the time of the securitization that was 
inconsistent with those representations. That information put 
them on notice that the representations were false, and 
investors were never told of that information either. So, as I 
said, those allegations are--those facts, I should say, are 
laid out in more detail in the statements of facts. But that is 
in general what the Department's investigations revealed.
    Mr. Conyers. Thank you. Now, do you recall what the total 
minimum requirement for donations to HUD-approved housing 
counseling agencies under the Bank of America and Citigroup 
settlements were?
    Mr. Graber. Yes. I believe that in the Citigroup 
settlement, the minimum to which you are referring is 
approximately $10 million, and in the Bank of America 
settlement it is $20 million. And in each of those cases--I 
believe I have the math right--it works out to less than 1/10th 
of 1 percent of the total settlements.
    Mr. Conyers. Okay, thanks. Now, have any of the settling 
banks donated any funds to third party groups under the terms 
of the agreements?
    Mr. Graber. Based on the monitor reports that have come out 
to date, it is my understanding that no money has been directed 
to third party organizations under the terms of these 
settlements.
    Mr. Conyers. Now, how rigorous is the approval process for 
HUD-approved housing counseling agencies? Discuss with us 
whether there are auditing requirements for these agencies and 
whether they may be terminated for failing to meet these 
standards.
    Mr. Graber. So the list of HUD-approved counseling agencies 
is a list that has been developed and is maintained by HUD. It 
is not the Department's list, and it is my understanding that 
it is a congressionally mandated list. It has existed in one 
form or another since, I believe, 1968. And my understanding is 
that there is oversight, and there is an auditing process that 
the Department of Housing and Urban Development maintains. And 
I also understand that if there is a failure to comply with the 
requirements, with HUD's requirements, that they can be removed 
from the list.
    Mr. Conyers. Thank you. What benefits do HUD-approved 
housing counselors and State-based legal aid organizations 
provide to assist consumers?
    Mr. Graber. My understanding is that they provide very 
valuable assistance to homeowners. You know, it is my 
understanding that these HUD-approved counseling agencies 
provide foreclosure assistance. They provide assistance to 
homeowners to repay their loans and to navigate the loan 
modification process.
    You know, folks around the country have, you know, suffered 
a lot dealing with, you know, independent third parties who 
have perpetrated loan modification scams and that type of 
thing. With these HUD-approved counseling agencies, because 
they go through such a rigorous process and they are subject to 
oversight, there is much less of a chance of something like 
that happening.
    Mr. Conyers. Mr. Chairman, I have three additional 
questions I would ask him to respond to very briefly, please.
    Mr. Marino. Without objection.
    Mr. Conyers. Thank you, sir. Does the Justice Department 
have any control or discretion regarding the distribution of 
funds to third party organizations?
    Mr. Graber. No, we do not. As I stated previously, the 
banks are required to choose which organization off the list of 
HUD-approved counseling agencies they will direct funds to. 
That list, as far as I know, consists of hundreds and hundreds 
of organizations. Some of them are Catholic Charities 
affiliated with dioceses around the country, Christian legal 
service organizations, Jewish charities, and many, many other 
non-profit organizations. It is up to the bank to decide which 
organization to which they will direct funds.
    Mr. Conyers. Let me quickly ask these two questions. Do any 
third party organizations have any influence or discretion 
regarding the use of funds donated through the settlement 
agreements?
    Mr. Graber. My understanding is that they are required to 
use the funds as outlined in the settlement agreement. So the 
extent any third party organization receives funds through 
these settlements, they will be required to use them for 
foreclosure assistance or other forms of housing assistance. 
And it will be the job of the monitor to ensure that those 
terms are complied with.
    Mr. Conyers. Thank you. And finally, please discuss the 
role of independent monitors in verifying that banks meet their 
consumer relief obligations.
    Mr. Graber. So each one of these settlements includes a 
monitor. In JPMorgan, the monitor is Joe Smith, and in 
Citigroup it is Tom Perrelli, and in the Bank of America 
settlement it is Eric Green. And it is the job of the monitor 
to ensure that all terms of the settlement are complied with. 
And more specifically, as the banks fulfill their obligations 
under the consumer relief component of the settlements, they 
will report their progress to the monitors. And then it is the 
job of the monitors to actually, you know, audit and then give 
credit under the settlement agreement to each of the banks.
    So if a bank were to, you know, provide funding or take 
steps that were inconsistent with the agreement, the monitor 
would then have the power to not credit those dollars that go 
out the door.
    Mr. Conyers. Thank you, Mr. Chairman, for your generosity 
with time.
    Mr. Marino. Thank you. Now, I am going to ask some 
questions, Mr. Graber. First of all, if you could, I want to 
understand the genesis of what is going on with this program, 
and I want to understand the precise mandatory donation 
provisions in Citibank and American settlements. And could you 
tell me, first of all, who told you or who was the highest 
Ranking Member at DOJ involved in making mandatory donation 
settlements?
    Mr. Graber. Thank you, Mr. Chairman. Each of these 
settlements was the result of a very long, complex, and arduous 
negotiation. And there were dozens and dozens of officials from 
the Department of Justice----
    Mr. Marino. But there had to be an individual from 
Department of Justice that said this is the route we are going. 
Who was that?
    Mr. Graber. So if I may, with respect to each of these 
settlements, when you are talking about the specific terms that 
were contained in these settlements, I do not think it is fair 
to say that any single individual was responsible for deciding, 
you know, whether to go one way or another.
    Mr. Marino. Sir, I disagree with you. I worked at Justice, 
okay? I was a U.S. attorney. Someone always gave a subordinate 
direction on what to do. It was either done through face-to-
face communication, email, or direct letter. Now, someone had 
to come up and say who gave the order to do this. Now, do you 
know what that is?
    Mr. Graber. I am not aware of any direct order.
    Mr. Marino. Would you not ask how your authority was 
granted? Did you not ask under what circumstances am I 
permitted to pursue this?
    Mr. Graber. So with respect to the consumer relief 
component of these settlements, there was a team of, I would 
say, a dozen or more----
    Mr. Marino. Did the DAG know about this?
    Mr. Graber. These settlements were approved at the highest 
levels of the Department.
    Mr. Marino. The Attorney General?
    Mr. Graber. The Attorney General is familiar with these 
settlements, and he----
    Mr. Marino. Okay. Was anyone at the White House involved in 
these discussions?
    Mr. Graber. I am not aware of anyone at the White House 
being involved in these negotiations in the lead-up to these 
settlements.
    Mr. Marino. I am assuming that you are personally not 
aware. Have you heard of anyone at the White House being 
involved in these?
    Mr. Graber. I am personally not aware of anyone at the 
White House being involved. I never heard of anyone at the 
White House being involved. And I would be very surprised to 
learn if anyone at the White House was involved or, you know, 
had any communications with people at the Department of Justice 
about these settlements because that would be contrary to the 
protocols of the Department of Justice.
    Mr. Marino. Were there any outside groups that participated 
in these discussions for mandatory donations?
    Mr. Graber. There was no outside third party group. There 
was no non-profit or, you know, charitable organization that 
participated in any way in these negotiations.
    Mr. Marino. Are you familiar with the EPA guidelines, and 
settlements with third party payments are common with EPA. Are 
you familiar with those guidelines that EPA has?
    Mr. Graber. I am sorry. Could you repeat that?
    Mr. Marino. Yes. Settlements with third party payment terms 
are most common in an environmental context. Are you aware of 
those guidelines?
    Mr. Graber. I have heard of them. I am not particularly 
familiar with them.
    Mr. Marino. Okay. What guidelines, if you can sum it up for 
me in 15 seconds, do you follow under this program?
    Mr. Graber. These settlements, and the Department has very 
clear authority to compromise claims on behalf of the United 
States, and that is what occurred here. The Department sought 
the appropriate internal guidance in the lead-up to these 
settlements.
    Mr. Marino. But you know of no guidelines. Let me give you 
an example. You know, the mitigation percentage according to 
environmental procedures should not exceed 80 percent of the 
SEP costs with two exceptions. For small businesses, maybe set 
as high as 100 percent, and for SEP costs, maybe set as high as 
100 percent. Are you familiar with any of these guidelines that 
should be followed?
    Mr. Graber. Well, those are guidelines that I believe apply 
to environmental settlements. These are not environmental 
settlements.
    Mr. Marino. I understand. I understand that clearly, but 
they are guidelines. As the Chairman said, we are talking about 
millions of dollars to be handed out. And there are indications 
that the Justice Department is just picking and choosing. Now, 
the issue is not if it is a left-leaning group. It may be. The 
issue is someone at Justice, someone, as you said, at the 
highest levels is picking and choosing who should get this 
money. And it is usually to organizations that may consult with 
people after they have lost their house, but it has nothing to 
do with those that are in mortgage foreclosure on how to help 
those individuals. So could you please, what say you about 
that?
    Mr. Graber. Thank you, Mr. Chairman. I understand the 
concern. The Department did not want to be in the position of 
picking and choosing who may or may not receive funds with 
respect to this component of the consumer relief provisions in 
these settlements. And that is why we, you know, decided that 
it would be best to use a preexisting list that contains 
hundreds and hundreds of organizations.
    Mr. Marino. I understand the list. The list is not the 
issue. The issue is someone makes the decision to whom that 
goes. Someone has communication from the Justice Department, at 
least I believe, with the banks as to here is a list of names, 
or here are a couple of names on who the donations can be made 
to.
    But let me read you something, a letter dated May 14th of 
2008 from Mark Filip, Deputy Attorney General. ``Plea 
agreements, deferred prosecution agreements, non-prosecution 
agreements, and extraordinary restitution.'' There is a lot 
here. I want to do this on the record if there is no objection. 
But here is the line that is important. ``Apart from the 
limited circumstances described below, this practice is 
restricted because it can create actual or perceived conflicts 
of interest and/or other ethical issues.''
    And this is why we are holding this hearing today. As the 
Chairman said, perhaps if we would have received the documents 
that we requested a long time ago, maybe you would not be here 
today. But it has been customary from the Justice Department to 
drag things out for not only 6 months, but over a year. So the 
taxpayers have a right to know where hundreds of millions of 
dollars are going, and if someone is cherry picking left wing 
organizations or right wing organizations to hand out this 
money.
    I see my time has expired, so now I am going to ask the 
gentleman from New York, Mr. Jeffries?
    Mr. Jeffries. Thank you, Mr. Chairman. Let me also thank 
the distinguished Ranking Member of the entire Committee. Mr. 
Graber, in 2008 our economy collapsed, correct?
    Mr. Graber. Yes. Well, there was certainly a very severe 
financial crisis that began around 2008.
    Mr. Jeffries. Right. In fact, it was the worst economic 
crisis that this country has experienced since the Great 
Depression, correct?
    Mr. Graber. I would agree with that.
    Mr. Jeffries. And millions of Americans lost their homes as 
a result of this financial collapse. Is that correct?
    Mr. Graber. That is correct.
    Mr. Jeffries. Okay. And this collapse was in large measure 
triggered by the reckless behavior of some financial 
institutions engaged in the mortgage-backed securities market, 
correct?
    Mr. Graber. I would agree that that was a contributing 
factor.
    Mr. Jeffries. Right. I think economists who are in any way 
objective about what happened have indicated that that was a 
large part of the economic trauma that this country 
experienced, in fact is an extraordinary experience. We are 
discussing an ordinary remedy to deal with what was an 
extraordinary experience. And so, I am not quite clear what the 
controversy is.
    But in response to this economic collapse, the Department 
of Justice initiated these lawsuits against financial 
institutes who were in part responsible for this economic 
trauma, correct?
    Mr. Graber. I think that is correct. I mean, in light of 
what occurred, you know, and what occurred in the RMBS market 
and in the broader economy in general, that was certainly a 
significant contributing factor to the Department's decision to 
allocate resources to pursue these investigations, yes.
    Mr. Jeffries. Now, we are discussing settlements against 
three major financial institutions where an extraordinary 
amount of money was secured as a result of the behavior that 
was conducted, true?
    Mr. Graber. I would agree with that.
    Mr. Jeffries. And can you give me that number again?
    Mr. Graber. The Department has secured over $36.6 billion 
through the three settlements that are being discussed today.
    Mr. Jeffries. And is it fair to say that the overwhelming 
majority of this money secured by the Department of Justice 
independent of any congressional action--I am not aware of 
Members of Congress participating in the litigation--that the 
overwhelming majority of this funding went to direct consumer 
relief for everyday Americans who were harmed by the behavior 
of these financial institutions triggering the economic 
collapse, correct? The overwhelming majority went to everyday 
Americans. Is that true?
    Mr. Graber. I would say, yes, that the vast majority of the 
monies that have been recovered through these settlements have 
either gone to civil FIRREA penalties and to consumer relief, 
and the vast majority of that consumer relief--I would say 
actually all of it--is going to provide some measure of relief 
to homeowners who have suffered as a result of the financial 
crisis.
    Mr. Jeffries. Okay. Let me enter into the record, with the 
distinguished Chairman's approval and unanimous consent, if 
that be issued, a statement by the Center for American Progress 
dated February 12, 2015.
    Mr. Marino. Without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                    __________
    Mr. Jeffries. Thank you. Now, is it in fact the case that 
with respect to the Bank of America and Citigroup settlements, 
only .3 percent of the settlement funds were to be directed 
toward housing counseling? Is that true?
    Mr. Graber. That sounds about right.
    Mr. Jeffries. Okay. And there is some dispute I gather as 
to whether this housing counseling is of benefit to the 
American people. But there are over a million homes that are 
still in foreclosure in America right now, correct?
    Mr. Graber. Yes. I do not have the precise numbers, but 
that sounds correct.
    Mr. Jeffries. Okay. And is it true that of those who go 
through the National Foreclosure Mitigation Counseling Program, 
they are 3 times more likely to receive a loan modification? 
Does that sound right to you?
    Mr. Graber. That does sound right to me. It is my 
understanding that the folks who utilize the services of 
organizations that are on the HUD-approved counseling list are 
far more likely to stay in their home and are less likely to 
default.
    Mr. Jeffries. And 70 percent, in fact, of individuals who 
go through counseling will stay on track in terms of their 
payment, a far greater number than those who do not receive 
this type of counseling. So I just want to thank the Department 
of Justice for the tremendous work you have done in securing 
these robust settlements, holding these financial institutions 
responsible for the collapse of our economy and triggering the 
Great Recession accountable, and for diverting some of the 
money legally to these organizations providing a good service. 
And I yield back.
    Mr. Marino. Thank you, Mr. Jeffries. The Chair now 
recognizes the gentleman from Texas, Congressman Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman. Mr. Graber, how 
long have you been at the Justice Department?
    Mr. Graber. I have been at the Justice Department since May 
of 2009.
    Mr. Ratcliffe. All right. I was there for a number of years 
as well along with the Chairman. I had the great opportunity to 
serve as a line level prosecutor and later as a U.S. attorney 
for the Eastern District of Texas. Chairman Goodlatte mentioned 
earlier the United States Attorney Manual that I was obligated 
to follow, and the obligations created under that manual to 
avoid any actual or perceived conflicts of interest in 
settlements.
    And, in fact, is it not true that everyone at the 
Department of Justice--you, when I was there, the Attorney 
General--we all take an oath to remain decidedly apolitical in 
the enforcement and administration of the Department mission?
    Mr. Graber. Absolutely.
    Mr. Ratcliffe. All right. Now, La Raza, which was mentioned 
earlier by the gentleman from Michigan, which describes itself 
as one of the largest advocacy groups in this country, that is 
a decidedly political group. Would you agree with me?
    Mr. Graber. I am aware of La Raza generally. I am aware 
that they, especially in the lead-up to these hearings, I am 
now aware that they engage in political activities.
    Mr. Ratcliffe. Well, how does the direction of settlement 
funds or making settlement funds available to decidedly 
political groups like La Raza mesh with the Department of 
Justice's mission?
    Mr. Graber. Thank you, Congressman. As I indicated 
previously, under the terms of these settlements, the 
Department of Justice does not direct any monies to any 
specific organizations on the HUD-approved----
    Mr. Ratcliffe. But it makes them available.
    Mr. Graber. I am sorry?
    Mr. Ratcliffe. But it makes them available.
    Mr. Graber. Anyone who is on the list would be available 
under the terms of the agreement. The Catholic Charities that I 
mentioned earlier, Christian Legal Services, Jewish charities, 
the organizations that you mentioned, if they are on the list, 
all of those organizations--I believe there are hundreds of 
them--would be available. And it will be up to the financial 
institutions to determine which one of those organizations on 
the list will receive any funding.
    Mr. Ratcliffe. Does it concern you at all the appearance of 
impropriety in requiring banks under this settlement to make 
settlement funds available to activist groups?
    Mr. Graber. Thank you, Congressman. Look, I understand the 
concern, and that concern is why the Department did not want to 
be in the business of picking and choosing any specific 
organization that would receive funding under the terms of the 
settlements. Instead, the Department thought it best to use a 
preexisting list, the HUD-approved counseling list. This is a 
congressionally mandated list that has existed for decades, and 
there are hundreds and hundreds of organizations on that list, 
and to leave it within the discretion of the financial 
institutions to choose which one of those organizations on the 
list to direct funds to.
    Mr. Ratcliffe. Well, Mr. Graber, that is the problem. The 
Department should not be making those decisions. The 
Department's mission is to enforce the Constitution, correct?
    Mr. Graber. I would agree with that.
    Mr. Ratcliffe. Okay. And the Constitution provides that 
``no money shall be drawn from the Treasury but in consequence 
of appropriations made by law.'' Congress makes the laws, 
correct?
    Mr. Graber. That is correct.
    Mr. Ratcliffe. All right. And you certainly respect the 
separation of powers that our Constitution provides, right?
    Mr. Graber. Absolutely.
    Mr. Ratcliffe. All right. And you think that the Department 
of Justice should remain in the business of enforcing the laws, 
not making laws.
    Mr. Graber. I would agree with that, and I would say that, 
you know, these settlements are an example of the Department's 
vigorous enforcement of the laws.
    Mr. Ratcliffe. All right. Well, we will just have to 
disagree about that. I will yield my time back.
    Mr. Marino. Thank you, Congressman. Okay. The Chair now 
recognizes the gentleman from Michigan, Congressman Trott.
    Mr. Trott. Thank you, Mr. Chairman. I appreciate your 
testimony. You know, it looks and smells a little bit like a 
slush fund. And I guess the critical question for me is when 
the settlements were reached with Citi, Chase, and B of A, how 
did they get access to the list for non-profits?
    Mr. Graber. I am sorry. Could you repeat that question?
    Mr. Trott. How did the financial institutions, they were 
just handed a list of the non-profits that were eligible for 
the money?
    Mr. Graber. I believe the HUD-approved counseling list is 
publicly available. It is on the website, and through the 
course of negotiations it was agreed that the parties would 
utilize that list.
    Mr. Trott. Okay. So you can state unequivocally that no 
attorney at Justice, the monitors of these settlements, none of 
those folks suggested at any time to B of A, Citi, or Chase 
that within this list of approved counseling agencies, there is 
any kind of preferred group. That is the critical question, is 
it not? I mean, if there was a preferred group, then we are 
talking about a slush fund, would you not agree?
    Mr. Graber. That is a perfectly fair question, and I am not 
aware of, and I would be shocked to learn, if any financial 
institution was ever directed to utilize any specific 
organization on the list. I am not aware of that at all.
    Mr. Trott. So you can understand with that apprehension why 
the documents that Chairman Goodlatte is looking for are so 
critical to this discussion. Would you agree that that would 
resolve this question, would it not?
    Mr. Graber. Well, I am aware of the request, and as I 
stated, our response is in process.
    Mr. Trott. Mr. Chairman, one of the things we need to do is 
we need to get folks in from B of A, Chase, and Citi and ask 
them when you got this settlement and you started picking who 
was going to get involved in the non-profit world, how did you 
make that decision. And if someone there contradicts what you 
have said, then this whole discussion is over. It is a game, 
set, match, and it is a slush fund.
    Now, if the Justice Department thought that this money for 
the non-profits was so productive, and some of it is. I have 
dealt with non-profits in the housing counseling world for many 
years. Some of them do a great job. Some of them do no service 
to the borrower who needs that help. But if they thought it was 
so productive, why would they not just recommend that the 
President's budget allocate more money to HUD for the non-
profits, and that would be consistent with the Constitution? 
And why would they have to have part of the settlement that the 
money is directed this way?
    Mr. Graber. Well, Mr. Congressman, I cannot speak to any 
decision with respect to the President's budget. What I can say 
is that through the course of the negotiations leading up to 
these settlements, we thought that directed funds to these 
types of organizations that provide housing counseling, and 
foreclosure mitigation, foreclosure prevention services, was a 
valuable part of the overall consumer relief package. You know, 
if through these settlements folks utilize the services 
provided by these housing counseling agencies and folks are 
able to stay in their homes, that is a good thing, and that is 
something that we hope can be achieved through these 
settlements.
    Mr. Trott. But there was another way to accomplish that, 
which is to have the money come into Treasury and recommend 
that the money be allocated accordingly in the President's 
budget. That would have accomplished the same result, would you 
not agree, and be consistent with our Constitution?
    Mr. Graber. Well, you know, that may be one hypothetical 
situation where funds could be allocated to third party groups, 
but----
    Mr. Trott. Well, the budget allocates money to non-profits 
under the HUD grants, so more funding in that area would have 
accomplished the same result.
    Mr. Graber. Mr. Chairman, I would agree with you that 
Congress could certainly allocate funds to these counseling 
agencies.
    Mr. Trott. I appreciate it. Next question. Why would there 
be a 2-to-1 credit? You know, in my experience, you have a 
borrower that has a $70,000 mortgage. The property when they 
bought it was worth $100,000. Now it is under water to the tune 
of $50,000. It is a very difficult loan modification to 
accomplish without some loan balance relief. Why not allocate 
it differently? Instead of 2-to-1 in terms of favoring 
potential slush fund abuses, allocate it 2-to-1 to the borrower 
and give credit to Bank of America twice for every dollar they 
allocate to help some borrower that has got a loan balance that 
is workable.
    Mr. Graber. So the crediting mechanisms in these 
settlements reflect a variety of factors, one of the most 
important of which is the relative expense of the various forms 
of consumer relief to the banks. So the reason that there is a 
2-to-1 crediting on the direct donations provision that we have 
been discussing is because that form of relief compared to 
modifications of assets already on the books of the financial 
institutions, those directed donations are very, very expensive 
for the financial institutions.
    It is my understanding--I cannot speak for the banks--but 
it is my understanding that the modifications of underwater 
loans, the type that you just mentioned, those types of 
modifications are far less expensive to the banks than the 
directed donations provision.
    Mr. Trott. Thank you, sir.
    Mr. Marino. The gentleman's time has expired. The Chair 
recognizes now the gentleman from Georgia, Congressman Collins.
    Mr. Collins. Thank you, Mr. Chairman, and good to see you 
there leading us in this Committee now. There are several 
things that confuse me, Mr. Graber, as we have been starting 
this. One, it is interesting you have been asked several times 
about, you know, the chain of command, and where the orders 
come from, and how did this get in here. Let me make sure. The 
DOJ, you all actually negotiated these settlements, correct?
    Mr. Graber. Yes.
    Mr. Collins. Okay. Well, I am glad we are at least starting 
on this foundational level here. So somebody had to know 
something that was going on on the direction of these 
settlements, correct? I am beginning to believe, and judging by 
what you had said earlier, it was like there was a group. It is 
almost like maybe we will walk down the hall of the DOJ and 
say, hey, we are going to a settlement discussion, who wants to 
throw in some information. Somebody had to have been giving 
some direction here, and to be honest, your answers are not 
clear.
    Let us just start here. The JPMorgan settlement did not 
have the mandatory donation provision, correct?
    Mr. Graber. That is correct.
    Mr. Collins. Okay. But yet Citi and Bank of America did, 
correct?
    Mr. Graber. That is correct.
    Mr. Collins. Let me ask you this. Why did you decide to 
depart from the previous precedent or precedents of previous 
agreements that came under the Bush Administration that 
provided that only money left over after all consumer injury 
had been redressed could go to third party groups?
    Mr. Graber. I am sorry. Could you repeat the question?
    Mr. Collins. Previous precedent was that only money left 
over after all injury or redress was there could that be then 
redressed to a third party group. Who made the change in that 
decision, or is this another group decision that really nobody 
knows?
    Mr. Graber. So as I stated previously, I am not aware of 
any direct order or any specific, you know, decision by an 
individual to go with the mandatory minimum provision. I was--
--
    Mr. Collins. So where did it come from? Was it just a 
kumbaya moment in the negotiations? And I am not trying to be 
funny here, but, I mean, I have sat through negotiations. I am 
attorney. I have sat through many negotiations. You have sat 
through many negotiations. At some point in time something had 
to give here. Something had to be interjected into the process 
to say, hey, here is a good idea, or, hey, here is a bad idea. 
Where did that come from?
    Mr. Graber. So as I stated earlier, there was a team, which 
consisted of a dozen or more officials from Department of 
Justice, and HUD, and other folks from the government, who were 
responsible for negotiating the consumer relief provisions. On 
any given day they were discussing dozens and dozens of details 
in each of these settlements. It is my understanding that----
    Mr. Collins. Did Department of Justice bring this up, did 
HUD bring this up, or did the banks bring this up? How did it 
get brought up?
    Mr. Graber. If I may, it is my understanding at a certain 
point, you know, the team determined that it was the best 
course of action to put in the mandatory minimum provision. It 
is not my understanding that there was any decision----
    Mr. Collins. Mr. Graber, look, I have a minute 40 left in 
my conversation here.
    Mr. Graber. I am sorry?
    Mr. Collins. I have a little over a minute left, a minute 
and a half. We are not going to run the ball out here. At this 
point in time, someone at the table, because it was not the 
JPMorgan. Somebody at the table, either DOJ, HUD, this 
wonderfully amorphous group that you keep talking about, 
somebody ought to say, well, let us put a minimum in here or 
let us send these to third parties. Was that DOJ's idea? Was it 
HUD's idea? Where did it come from? And I am going to stop 
right here. If you tell me about this amorphous group, 
everybody having a good idea again, then just say I do not 
know. I am giving you a chance.
    Mr. Graber. I do not know----
    Mr. Collins. Thank you.
    Mr. Graber [continuing]. If there was any specific 
individual who, you know, who brought it up first----
    Mr. Collins. And if was your idea, take credit for it. I 
mean, this is amazing. Let us go about it real quickly, 47 
seconds left. I want to switch. The monitoring process you 
talked about, it only deals with the banks, okay? And we talk 
about the banks, making sure that they live up to their 
agreements and their end of this. DOJ does not have any 
monitors in place to ensure that if these monies go to intended 
groups that they are actually using it for the purposes stated. 
Is that not a concern of DOJ in making these agreements, that 
they would go to third party groups, but your monitors only 
monitor the bank that they gave them the money, no that the 
intended result was going to happen.
    Mr. Graber. Actually it is my understanding that the 
monitor will actually oversee the use of these funds by third 
parties----
    Mr. Collins. But that was not your earlier testimony. Your 
earlier testimony was that the monitors were to monitor the 
banks, that the money went to where it was supposed to go, and 
they would do the audit to make sure they got the money so they 
could get properly credited in that process. And also any 
research that we have done is that there is no DOJ monitoring 
to do that for the third party groups.
    Mr. Graber. Absolutely. The monitor will oversee the 
allocation of the funds from the banks, including allocation 
under these provisions to third parties. And it is my 
understanding that if the third parties were to use the funds 
in a way that is inconsistent with the terms of the agreement, 
the monitor would be responsible for catching that. And the 
monitor would not credit the bank for the funds that went out 
the door on that.
    Mr. Collins. But, again, that is contradictory to some of 
your testimony. With that, Mr. Chairman, there are many, many 
questions here left to go. But with that, I yield back.
    Mr. Marino. Thank you, Congressman. The Chair now 
recognizes the gentleman from Michigan, Congressman Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. Thank you, Mr. Graber, 
for your testimony. Is it the practice of the Department of 
Justice to send one person to a hearing like this?
    Mr. Graber. I could not tell you the answer to that. It is 
the practice today certainly.
    Mr. Bishop. It just seems to me that the gravity, the 
weight of what we are talking about today would require that 
you would send some of your folks over. It is frustrating to 
sit here and hear ``I do not know'' over and over and over 
again on questions that, very frankly, should be answered, you 
know, off the top of your head. On some of these issues I am 
sure there are folks that have direct understanding and 
knowledge of these issues, and it is frightening as a citizen 
to sit here. It is angering as a Member to sit here and hear 
this banter back and forth and hear very important questions, 
and not get specific answers. The answer should never be ``I do 
not know.''
    I noted in your testimony, and as a former prosecutor 
myself, I consider this laudable because I do believe that 
prosecutors have a responsibility to stand up on behalf of 
victims. You indicated in your testimony that the DOJ was 
securing relief that ``likely could not have been ordered by 
the court even if the government had prevailed at trial.'' Was 
that your statement?
    Mr. Graber. That is correct.
    Mr. Bishop. I think that is wonderful that the Department 
of Justice has that kind of resolute interest in making sure 
they secure, you know, the proper level of relief for each one 
of its consumers. But does that not scare you a little bit or 
should it not scare us a little bit to think that the 
Department of Justice has that ability to secure that kind of 
justice outside the court system over and beyond what we would 
have at trial, for example?
    Mr. Graber. Thank you, Congressman. The settlements that we 
entered into here, namely pre-litigation, out of court 
settlement, is very much consistent with the Department's 
authority to compromise claims on behalf of the United States. 
And the Department enters into settlements like this all the 
time, every day, in fact. So I do not think there is anything 
unusual about that.
    Mr. Bishop. It is not unusual for the DOJ to have more 
authority than someone else would have in a regular court 
proceeding?
    Mr. Graber. Well, no, I would not necessarily agree with 
that. I just think that the fact that this settlement occurred 
out of court, you know, prior to litigation is consistent with 
the Department's authority, and is, quite frankly, typical. And 
I would also say that it is not unusual for parties to reach 
agreements to compromise claims that contemplate forms of 
relief that may not have been able to be awarded by a court.
    Mr. Bishop. So it is the very threat of the DOJ, the heavy 
hand of government, to come in that could probably extract a 
better concession, a better settlement than you could in court. 
I mean, that is a rather imposing threat to level on someone, 
is it not?
    Mr. Graber. I would say that we do not know what a court 
may or may not have done if we had decided to litigate these 
cases.
    Mr. Bishop. All right. The Bank of America settlement, just 
switching gears here. The Bank of America settlement requires 
the bank to set aside $490 million to cover potential consumer 
tax liability. Was that something that the DOJ suggested?
    Mr. Graber. Yes, I believe that that was something that the 
Department suggested and certainly the Department supported.
    Mr. Bishop. Did the DOJ also want a similar provision in 
the Citi settlement, which was concluded I think just before 
that, a month earlier?
    Mr. Graber. I do not recall specific discussions about, you 
know, that specific term or a potential term in the course of 
the Citi negotiations. I should also point out that, look, in 
the lead-up to these settlements, again, I mean, the reality is 
that there were dozens and dozens of officials who were 
involved. There were dozens, if not hundreds, of meetings, 
sometimes simultaneous meetings. Sitting here today, the fact 
of the matter is that I was not in every one of those meetings.
    Mr. Bishop. Thank you, sir. Yield back.
    Mr. Marino. Thank you. Deputy Graber, thank you for being 
here. You are excused. And we now call the second panel to 
today's hearing. Thank you, sir.
    Mr. Graber. Thank you.
    Mr. Marino. Before you sit down, could I ask the panel to 
please stand, to raise your right hand?
    Do you swear the testimony that you are about to give is 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    [A chorus of ayes.]
    Mr. Marino. Let the record reflect that the witnesses have 
affirmed their testimony. Thank you, ladies and gentlemen, for 
being here.
    I am going to start with a brief introduction of our panel 
witnesses and get right to the questions. We are in a hard-
pressed time to be out of here in about 45 or 50 minutes.
    Mr. Paul Larkin is a senior research fellow and director of 
the Rule of Law Initiative Project for the Heritage Foundation, 
specializing in countering abuse of Federal criminal law. Mr. 
Larkin worked at the U.S. Department of Justice as an assistant 
to the Solicitor General and as a counsel in the Criminal 
Division's Organized Crime and Racketeering Section. During his 
time at the Environmental Protection Agency, he was a special 
agent and an acting director for the Criminal Enforcement 
Branch. Mr. Larkin also served as counsel to the Senate 
Judiciary Committee and was the chief of the Crime Unit under 
panel chairman, the Honorable Orrin Hatch.
    Throughout his 25 years of practice, Mr. Larkin has argued 
before the Supreme Court in 27 cases. He is a graduate of 
Stanford Law School and a former law clerk for Judge Robert H. 
Bork on the U.S. Court of Appeals for the D.C. Circuit. 
Welcome, sir.
    Mr. Ted Frank has won millions of dollars for consumers and 
shareholders through the non-profit Center of Class Action 
Fairness, which he founded in 2009. Mr. Frank has argued and 
won several landmark appellate cases protecting consumers from 
unfair class action settlements. His work in this area has been 
profiled by, among others, the Wall Street Journal, Forbes, the 
National Law Review, the ABA Journal, and The American Lawyer. 
He has testified before Federal and State legislative 
subcommittees multiple times about class action conflicts of 
interests and settlements and about legislative victim 
compensation programs.
    Mr. Frank is a graduate of the University of Chicago Law 
School and a former law clerk to the Honorable Frank H. 
Easterbrook of the U.S. Court of Appeals for the 7th Circuit. 
Welcome, sir.
    Mr. Frank. Thank you.
    Mr. Marino. Ms. Mrose is the CEO of Compass Films of New 
York LLC. Her work focuses on the housing industry and the 
interaction between government, banks, housing advocates, and 
the economy. Her experience includes co-hosting a talk radio 
program and research on regulations issued by the Department of 
Housing and Urban Development.
    Ms. Mrose is a graduate of Tufts University's Fletcher 
School of Law and Diplomacy, and welcome, ma'am.
    Ms. Mrose. Thank you.
    Mr. Marino. And I am sorry, Professor White, but I do not 
have your background. If someone gives it to me at some point I 
will read it. I apologize for it for not being here, but I do 
want to welcome you, and thank you for being here today, and we 
will get to your background when it is handed to me. I see it 
is right here. Thank you.
    Professor Alan White joined the faculty of CUNY School of 
Law in 2012. He teaches consumer law, commercial law, 
bankruptcy, comparative private law, and contracts. The latter 
was not my favorite in law school. He is a nationally 
recognized expert on credit regulation in the residential 
mortgage market. Professor White is a past member of the 
Federal Reserve Board's Consumer Advisory Council, a member of 
the American Law Institute, and is currently serving as 
reporter for the Uniform Law Commission's Project on a 
residential real estate foreclosure statute.
    He is quoted frequently in the national media, including 
the New York Times, the Wall Street Journal, and the Washington 
Post in connection with his research on the foreclosure crisis. 
He has published a number of research papers and articles on 
housing credit and consumer law issues, and has testified 
before Congress and at Federal agency hearings on the 
foreclosure crisis bankruptcy reform and predatory mortgage 
lending.
    Before becoming a full-time teacher, Professor White was a 
supervising attorney at the North Philadelphia office of 
Community Legal Services, Inc., and was also a fellow and 
consultant with the National Consumer Law Center in Boston, and 
an adjunct professor with Temple University Law School and 
Drake University School of Law. His legal services practice 
includes representation of low income consumers in mortgage 
foreclosures, class actions, bankruptcies, student loan 
disputes, and real estate matters.
    Mr. White received his B.S. from the Massachusetts 
Institute of Technology and his J.D. from the New York 
University School of Law. Welcome, sir.
    Mr. White. Thank you.
    Mr. Marino. Each witness' written statement will be entered 
into the record in its entirety. I ask that each witness 
summarize his or her testimony in 5 minutes or less. And to 
help you with staying within that time, you see the lights in 
front of you. If the light switches from green to yellow, it 
means you have a minute left, and when it gets to red I will 
politely tap here to give you an indication if you would please 
wrap up.
    The Chair now recognizes Mr. Larkin for his opening 
statement. Sir?

TESTIMONY OF PAUL J. LARKIN, JR., SENIOR LEGAL RESEARCH FELLOW, 
  EDWIN MEESE III CENTER FOR LEGAL AND JUDICIAL STUDIES, THE 
              HERITAGE FOUNDATION, WASHINGTON, DC

    Mr. Larkin. Mr. Chairman, Ranking----
    Mr. Marino. The microphone in front of you, you have to 
push the button there, and the light should come on.
    Mr. Larkin. My mistake. Sorry.
    Mr. Marino. That is quite all right. I do it.
    Mr. Larkin. Mr. Chairman, Mr. Ranking Member, it seems to 
be common ground that if these checks that were due to the 
United States were actually deposited in the Treasury, the 
Justice Department would lack any authority to require that 
they then be turned over to anyone else. Not only would they 
not have possession of the check, the law--that is, the 
Constitution as well as the Anti-Deficiency Act and the 
Miscellaneous Receipts Act--would prohibit the Department of 
Justice from handing out this money.
    So the only dispute is whether the Justice Department can 
engage in the same result simply by directing the bank to do 
it. In other words, once the Department has deposited the 
check, they could not give the money to these groups. So 
instead, what the Department has done is tell the bank do not 
give me the check. Give the check to these private parties.
    Now, if you want to understand this, flip the facts around. 
Suppose this were a settlement and the Department was paying 
the banks. The lawyer, who is handling the case for the banks, 
could not tell the Department do not write all of the checks to 
me. Write some of the checks to a charity of my choosing or a 
charity of your choosing. The lawyer for a client cannot give 
away the money that belongs to the client, and in this case, 
the Department represents the United States, and they are not 
allowed to give away money that belongs to the United States 
unless there is express statutory authority to do it, and there 
is none here.
    What aggravates this problem even more is that you have 
these sorts of settlements gradually coming into wider and 
wider use ever since the Anderson case was resolved with 
everyone being a loser. Why is that a problem? Because 
oftentimes there is no judicial involvement whatsoever. These 
agreements often are a means of disposing not of charges or a 
lawsuit that has already filed. They are a means often of 
disposing of charges or a lawsuit before any are filed. So 
there is no judicial involvement whatsoever. You have an 
agreement entirely between the lawyers for the United States 
and the lawyers for other parties. And in this agreement they 
are trying to engage in what is for all intents and purposes a 
sham transaction to avoid depositing all of the money that is 
due to the taxpayers of the United States into the account that 
the Treasury maintains, that Congress thereafter can decide how 
it will be spent.
    After all, Article 1 says that no appropriations can be 
made--or excuse me--no money can be taken from the Treasury 
except pursuant to an appropriation. It is designed to prevent 
the President from using the Treasury as if it were his own 
personal account. Only Congress can authorize him to spend that 
money. When the money then comes into the government, the 
Miscellaneous Receipts Act requires that it be deposited into 
the Treasury with a few exceptions, none of which are 
applicable to housing cases or the ones we have here.
    Once the money is then deposited, it is up to the elected 
members to decide how to spend it. If they want to give it to 
these organizations, that is perfectly proper. When I worked 
for Senator Hatch, the Judiciary Committee worked on 
legislation to authorize money to be given to the Boys and 
Girls Clubs. Why? Because the Committee thought that would 
advance the welfare of the Nation, but only if the Committee 
had authorized it and then the appropriators had appropriated 
the money could that be done.
    And it does not matter whether this is done in a Democratic 
or Republican Administration. As my paper and the paper by the 
Chamber of Commerce point out, Republicans have done this 
before, and when they did, they were just as wrong. And it does 
not matter that the money goes to an organization that may be a 
valuable mechanism for disposing of funds. It does not matter 
if it goes to Catholic Charities. It does not matter if it goes 
to any Christian organization. It does not matter if it goes to 
any organization whatsoever. If it is an organization that is 
not authorized by Congress to receive the money, the 
expenditure is impermissible.
    The same ethics rules should apply to government lawyers in 
this context that would apply to private parties. They act on 
behalf of the United States. In so doing, they are not allowed 
to make their own decisions. And by the way, if you want to 
find out who made this decision, I would start by looking at 
the two agreements because if you look at the two agreements, 
what you will see is that they were signed for the United 
States by Tony West, the Associate Attorney General, who is the 
number three person in the Department.
    So in all likelihood, he knew what these provisions were. 
And given the size of this, unless he was irresponsible, he 
also brought that to the attention of his superiors in the 
Department. You do not enter into an agreement like this 
without telling your boss what you are about to do.
    I am glad to answer any questions you may have.
    [The prepared statement of Mr. Larkin follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
                               
    Mr. Marino. Thank you, sir.
    Mr. Frank?

           TESTIMONY OF THEODORE H. FRANK, FOUNDER, 
        CENTER FOR CLASS ACTION FAIRNESS, WASHINGTON, DC

    Mr. Frank. Thank you, Mr. Chairman, Mr. Ranking Member----
    Mr. Marino. You want to push that button.
    Mr. Frank. Thank you, Mr. Chairman, Mr. Ranking Member, and 
the Committee for having me here. I am the head of the non-
profit public interest law firm, Center for Class Action 
Fairness, but I do not speak on their behalf today. However, my 
experience with the center is with civil litigation in class 
action settlements that raise very similar issues where class 
counsel breached their fiduciary duty to their clients and 
tried to divert money to third party charities rather than to 
the purportedly injured plaintiffs in a class action.
    So, for example, 5 weeks ago we won a case in the 8th 
Circuit involving Bank of America shareholders where class 
counsel for the shareholders, instead of distributing $2.7 
million of leftover money to the shareholders, decided that he 
wanted to write a big check to the local Legal Aid Society and 
have a ceremony of the big check where he would get his picture 
in the paper. That might be nice for the attorney who has more 
gratitude from his local charity than from shareholders getting 
a few dollars each, but it is a breach of their fiduciary duty, 
and we got that diversion overturned.
    We won another case in the 9th Circuit, Nachshin v. AOK, 
where the lawyers tried to give money to the judge's husband's 
charity. These are real conflicts of interest. They are real 
problems, and courts have been stepping in. Most notably, Chief 
Justice Roberts indicated the need for this in the Merrick v. 
Lane case, 134 S. Ct., page 8.
    The problem is even more egregious in the prosecution 
context for the reasons Mr. Larkin has just demonstrated, but I 
would like to raise some other issues. These settlements are 
being discussed as providing $7 billion of consumer relief or 
$2.5 billion of consumer relief. But when you get into the 
weeds of the agreements in Annex Number 2, you see these $2 or 
$1 credits, $3 credits, as much as $3.75 per dollar credits. 
And as a result, you are not talking about a diversion of $150 
million. You are talking about the Department of Justice 
getting credit for ``$7 billion of consumer relief,'' but, in 
fact, the banks will be paying billions of dollars less in 
order to funnel money to the Department of Justice's preferred 
recipients.
    Now, again, as Mr. Larkin said, it may be some of these 
recipients are good. They may not be. But at the end of the 
day, the Justice Department does not have the authority to do 
that except by bypassing the Treasury through these settlement 
agreements, and the bypassing has other legal consequences. For 
example, in Chapter 45 of the Code of Federal Regulations, when 
the Federal Government gives money to legal aid societies, as 
this settlement requires, there are a lot of strings attached 
to that Federal money. The legal aid societies can only use it 
in certain ways.
    This settlement bypasses those congressional restrictions 
or these Federal legal regulations and restrictions. And, 
again, the monitor will not be overseeing this. The monitor is 
only determining whether the bank has given the money that they 
are supposed to give.
    Other problems. In effect, DOJ is creating housing policy, 
Treasury policy, and in many ways, overriding existing policies 
of the Treasury Department and the Housing Department without 
any oversight from Congress or otherwise. So there is credit 
being given for loan modifications that do not satisfy the 
Treasury Department's HAMP requirements. Now, there are 
disputes over whether or not HAMP is effective, but what is 
clear is if you loosen those requirements, it is going to be 
less effective than the existing Treasury Department program. 
But the DOJ is now creating its own loan modification program 
without the regulatory expertise to do so, and with potentially 
adverse public policy results.
    There is another provision in the Bank of America 
settlements in Section 2.A of the Annex, menu item 2.A of the 
Annex. Bank of America gets a $10,000 credit for providing 
first-time home buyers of lower/moderate income a loan. Now, 
there are two possibilities there. One, these are financially 
viable loans that Bank of America would be happy to make 
anyway, in which case it is completely illusory relief. They 
are just going to get a $10,000 offset to what is supposed to 
be consumer relief. Or these are not financially viable loans, 
but the DOJ is distorting the market for loans to encourage yet 
more loans for mortgages that potential low and moderate income 
people cannot actually afford. And that is how we got into this 
mess in the first place.
    I welcome your questions.
    [The prepared statement of Mr. Frank follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Marino. Thank you, sir.
    Ms. Mrose? Am I pronouncing that right?

               TESTIMONY OF CORNELIA MROSE, CEO, 
         COMPASS FILMS OF NEW YORK LLC, WESTCHESTER, NY

    Ms. Mrose. Hello.
    Mr. Marino. Hello.
    Ms. Mrose. Thank you.
    Mr. Marino. Am I pronouncing your name correctly----
    Ms. Mrose. Yes, that is perfect.
    Mr. Marino. Mrose?
    Ms. Mrose. That was perfect.
    Mr. Marino. Thank you.
    Ms. Mrose. Thank you for inviting me. As the Chairman 
already said, my firm, Compass Films of New York, is going--
well, you did not say that. But I am the CEO of the Compass 
Films of New York, and I am making a film about the true causes 
of the financial crisis, and how the real culprits are doubling 
down. And in order to do that, I went and interviewed various 
people. One of them was the former CEO of BB&T, John Allison. 
And I want to start off by reading you the answer that he gave 
to me when I asked him the following question.
    So my question to John Allison was this: ``Did BB&T make 
loans it would not have made otherwise in order to keep a good 
or excellent CRA rating,'' and ``Was BB&T pressured by 
community activists to make subprime loans or to pledge money 
for future loans to what they called underserved areas?'' ``Did 
you have any direct contact with activist groups?'' And his 
answer was this. ``BB&T did make high risk low income loans to 
meet CRA requirements, and we were pressured to make subprime 
loans and pledge money by activist groups. All banks paid 
bribes to CRA groups. I had direct contact with them.''
    I am quoting this because it sheds light on the enormous 
power and the political influence on a vast left-leaning non-
profit network that exists in the United States today. And I do 
not have much time, but I am going to focus on this left-
leaning network in my 3 minutes remaining. You can read the 
details in my prepared comments.
    First of all, I would like to say that in 1960, the 
government of the United States gave very little money to non-
profit organizations. That has changed dramatically. The Urban 
Institute published in 2013 a national survey of non-profit 
groups. It is an excellent survey. It contains a lot of 
information.
    In 2012, government in the United States, Federal, State, 
and local, gave $137 billion to non-profit groups. $81 billion 
of those $137 billion went to social service non-profit 
organizations. These are affordable housing groups, legal aid 
groups, civil rights groups, ethnic groups. There were 
approximate 200,000 contracts and grants with about 30,000 of 
these social service non-profits in 2012. On average, six to 
seven grants and service contracts, non-profit.
    Now, I want to focus on particular group that stands to 
profit from the particular stipulations in the settlement. The 
name of this group is NeighborWorks Orange County. It is a 
501(c)(3) tax exempt non-profit organization based in Orange 
County, California. And I am focusing on this one because it is 
one of these various groups that are specified in the 
settlement, a CDFI HUD-approved housing counseling agency, et 
cetera.
    So NeighborWorks Orange County is a chartered member of 
NeighborWorks America. It is also an affiliate of the National 
Council of La Raza and CLR. It is a HUD certified housing 
counseling agency. HUD has, by the way, 2,400 of these approved 
housing counseling agencies in the United States with about 
8,000 housing counselors.
    NeighborWorks Orange County is certified by the U.S. 
Treasury Department as a community development financial 
institution, a CDFI. The Treasury Department provides funds to 
CDFIs through various programs, and it is also a community 
development corporation, a CDC. All these special organizations 
are listed in the settlement.
    How much money did Orange County receive in 2012? It 
received $3.8 million from the government, from the Federal, 
State government. It received more money in the past. In 2010 
it got around $8 million, and in 2009 it received around $5 
million. Not all of the money that NeighborWorks Orange County 
received came from government entities. Some of it came from 
taxpayers. And if you look at who gives money to this non-
profit, you see that most of these enterprises are banks, so 
all the big banks. Citibank is there, and Bank of America is 
there, and Chase, and Wells Fargo, and many other banks, which 
means that a very small percentage, 3.4 percent, of its money 
came from private business. 94.6 percent came from taxpayers.
    This is quite typical. When you look at such non-profit 
organizations that many banks contribute to such groups. Why? 
It is basically protection money. They give to groups that are 
certified and approved by government agencies. It is an attempt 
to buy protection against being singled out for punishment by 
the Department of Justice.
    Mr. Marino. Ms. Mrose, could you wrap up----
    Ms. Mrose. Oh, yes.
    Mr. Marino [continuing]. Because your full statement will 
be made part of the record.
    Ms. Mrose. Yes, I certainly will. So I wanted to talk 
about, and I will not have time to do that, but just briefly. 
NeighborWorks Orange County, what does it really do? It has 26 
employees. And what are they doing? Is it useful to the 
American citizens, the work they are doing? No. They are 
basically navigating the various Federal and State government 
programs designed to let people buy a house who cannot really 
afford to do so.
    So there are example programs like ``Making Home 
Affordable,'' which is an official program of the Department of 
the Treasury and HUD, or, of course, HARP, or Keep Your Home 
California, a program of CalHFA Mortgage Assistance 
Corporation. That is also a non-profit organization that 
receives Federal funds, et cetera, et cetera.
    Now, you might ask yourself is that a good use of 
taxpayers' money? Does it really make sense for these 26 
employees to spend navigating the labyrinth of government, easy 
credit access programs that are also financed by taxpayers all 
in order to let buy houses that they cannot afford.
    Mr. Marino. Okay, Ms. Mrose, we are running out of time 
here. So you will be able to address some of those in questions 
that you are asked, if you do not mind, please.
    Ms. Mrose. Thank you.
    [The prepared statement of Mr. Mrose follows:]
              Prepared Statement of Cornelia Mrose, CEO, 
                     Compass Films of New York LLC
                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Marino. Professor White?

         TESTIMONY OF ALAN M. WHITE, PROFESSOR OF LAW, 
                CUNY SCHOOL OF LAW, NEW YORK, NY

    Mr. White. Thank you, Mr. Chair, and Mr. Ranking Member, 
Members of the Committee for the invitation to testify today. 
As you mentioned, I have a great deal of experience doing 
research on the mortgage market and on the foreclosure crisis. 
And I did want to mention that for 24 years I represented low 
income homeowners in foreclosure cases in Philadelphia, 
Pennsylvania.
    I make a number of points in my written testimony. I would 
like to just focus my 5 minutes on two points about legal aid 
organizations and housing counselors. And to say, first of all, 
that directing money to these groups is an effective and 
perhaps the most effective way of remedying the injury that the 
Federal lawsuits were designed to remedy. That is, to 
compensate both homeowner consumers and as well investors who 
lost billions, possibly trillions, of dollars as a result of 
the fraud that is the subject of the lawsuits.
    The second point I want to make is about the accountability 
of legal aid and housing counseling agencies because I have 
both personal and professional knowledge about that. So let me 
first talk about effectiveness. There is considerable empirical 
research, and I cite it, that demonstrates that having a 
housing counselor or a legal aid lawyer, for example, for the 
Delaware couple that the Chairman mentioned earlier, will 
greatly increase the chances of a successful workout with the 
bank, so that a thousand or two spent on a housing counselor or 
a legal aid lawyer can save the homeowner's home and prevent a 
loss that is typically going to run in the hundreds of 
thousands of dollars for the bank and for the investors. And I 
do not think there is really any controversy about that.
    I would also like to say that most of the housing 
counseling agencies are not these activist groups that we hear 
about. For example, I believe in Williamsport, Pennsylvania, 
the primary housing counselor is Consumer Credit Counseling of 
Northeast Pennsylvania, an organization I am a little bit 
familiar with because of some foreclosure crises that occurred 
in the Poconos while I was practicing.
    The consumer credit counseling agencies were set up 
originally funded by the banks to advise consumers on how to 
deal with unmanageable credit card debt. And after the 
foreclosure crisis, they began to get into the business of 
helping people navigate their way through the very difficult 
process of workouts with banks. So the consumer credit 
counseling services, some of the faith-based organizations, 
veterans groups. There are lots and lots of groups that are 
both very effective at this work and that I think if Bank of 
America and Citibank choose to fund them and to avoid activist 
groups, they can certainly do that.
    On the accountability point, there have been some 
settlements at the State level. State attorneys general have 
done things similar to what Justice has done with this 
settlement in directing funds to legal aid and housing 
counseling networks. And I spoke with somebody I know who helps 
to administer the New York Attorney General's program, and she 
assures me that every contract with every housing counselor and 
every legal aid agency specifies exactly what they can and 
cannot do with the funds.
    And, of course, we do not know what Bank of America or 
Citibank's contracts with whoever they choose to fund are going 
to provide. But there is every expectation that they are going 
to restrict the use of the funds to the activities specified in 
the settlement. And I can tell you from experience that those 
kinds of non-profits, housing counselors, and legal aid 
organizations do detailed cost accounting.
    We kept time records in which we accounted for every 10 
minutes of every hour and specified what activity we were 
engaged in, and which funding source was paying for that 
activity. And I can certainly assure you that if we violated 
the terms not only of government funding at the Federal or 
State level, but even private funding from foundations, our 
auditors would point that out, and we would have a problem. And 
the housing counseling agencies typically operate on that 
model. They are very carefully overseen and audited.
    Part of the difficulty with this hearing is we do not 
really know exactly how the banks are going to administer these 
programs. And as far as I know, I do not think they have gotten 
very far. From everything I have heard from inquiring, they 
have not actually picked who the groups are going to be and how 
they are going to administer the funds. It is a relatively 
small portion obviously of the programs they have to implement. 
But I have every expectation that the banks will establish the 
same kind of contractual restrictions that we have seen in 
other settlements. And so, so the idea that a small amount of 
money is going to be misdirected toward political activism 
seems to me unlikely in the extreme.
    So I did want to focus on the counseling agencies on the 
legal aid providers because I think that a lot of the publicity 
about this issue has really been unfortunate in 
mischaracterizing who they are and what they do. And they are, 
as I say, an extremely effective and useful means of remedying 
the wrong that these lawsuits were intended to remedy.
    So with that, I will answer any questions you might have.
    [The prepared statement of Mr. White follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Marino. Thank you, sir. I am going to start out by 
asking my 5 minutes of questions. I will start with Professor 
White. I do not know if it is coincidental that you used my 
hometown in Williamsport, Pennsylvania or if that is where you 
knew I came from?
    Mr. White. That is not a total coincidence. I grew up in 
State College.
    Mr. Marino. Nevertheless, I agree with just about 
everything you said. I think the agencies, what they are 
designed for are good. But it should be focusing on people who 
are in the process of losing their homes and not handling 
issues where people have already lost their homes 
unfortunately, and it perhaps should have been done that way to 
begin with. And you say, well, we do not know yet. That is 
exactly what we do not know.
    DoJ will not turn over any information that we have asked 
for concerning who, what, where, and when. Where does this 
money come from and how is it spent? And you are right. Legal 
aid, which I have dealt with as a district attorney and even as 
a U.S. attorney, these people do a great job in defending those 
that cannot afford it, but they are very regimented. And my 
good friends on the other side and you have even stated to a 
certain degree that we are only talking about a little bit of 
money. I do not care if it is a thousand dollars. It is still 
taxpayers' money that has to be accounted for.
    But you know what the issue is here, Professor? The issue 
is Congress appropriates, not the Justice Department. And the 
Justice Department has taken this on itself to determine how 
these settlements are going to be made. I do not agree with the 
2-for-1 for the 3-for-1 credit. This all boils down to who has 
the authority to appropriate, and it is Congress. And what say 
you, sir?
    Mr. White. Well, I guess I would say I respectfully 
disagree with a couple of your points.
    Mr. Marino. Well, let us start ticking them off.
    Mr. White. As far as the constitutional issue about 
appropriations, that is not really my specialty. I will say I 
do teach remedies, and the idea that----
    Mr. Marino. It is one of my specialties because I pay a lot 
of attention to it. And so, the Constitution is very clear. I 
think some of my colleagues agree with me that unless we 
specifically state by statute, nobody, not the executive 
branch, not the judicial branch, has a right to appropriate 
money. Do you disagree with that, sir?
    Mr. White. I do not think that is a characterization of 
what the Justice Department is doing here. I do not think they 
are appropriating taxpayer funds. I think they are----
    Mr. Marino. Well, they are using extortion to make banks--
--
    Mr. White. If I could continue----
    Mr. Marino [continuing]. Appropriate funds to left-leaning 
organizations. Now, there is no accounting at this point as to 
how this money is being appropriated, whether Justice hands it 
out or they tell a bank to hand it out a certain way. So what 
would be your recommendation as to how we can account for this? 
What is wrong with this process, turning the money over to the 
Treasury, the Treasury then allocating that money through 
legislation that we in Congress can legislate, and follow, and 
have oversight on it? Now what is wrong with that process, sir?
    Mr. White. I would be totally in favor of Congress 
appropriating more funds for housing counseling and legal 
services.
    Mr. Marino. So they are not doing that, though.
    Mr. White. Listen----
    Mr. Marino. Pardon me?
    Mr. White. With all due respect, those two approaches are 
not mutually exclusive. Negotiating remedies for victims in 
lawsuits and Congress appropriating funding for similar 
activity, those are both----
    Mr. Marino. Congress has not appropriated the funding on 
this specific issue. These agencies also receive money through 
HUD, so in addition there is a double dip there. So, I am 
sorry, I do not agree with you that this is a legitimate way to 
establish appropriation. Show me a statute where it says that 
the Justice Department has the authority to negotiate with 
banks that they can give money to left-leaning organizations.
    Mr. White. Well----
    Mr. Marino. You cannot do that, sir.
    Mr. White. That is a compound question. I would object----
    Mr. Marino. Well, you are an attorney. You are a professor. 
You should be answer. I am sure you have compound questions on 
your law school exams.
    Mr. White. They are not left-leaning organizations, first 
of all. Secondly, the Justice Department is not, as I 
understand it, proposing to appropriate any taxpayer funds. 
They are simply negotiating restitutionary relief, which State 
attorneys general and the Justice Department does all the time. 
Not only do you seek an award of fines that are paid to the 
Treasury, but you seek restitution to be paid to the victims of 
the misconduct.
    Mr. Marino. Exactly right, sir. And as a U.S. attorney, I 
did the same thing on the criminal side and on the civil side. 
And whether there is a violation on the criminal side or 
whether there is a breach of the civil side, the restitution, 
the fines, are taxpayer dollars.
    Mr. Larkin, you have heard the answers by Mr. White. What 
say you?
    Mr. Larkin. You can only give out--my apology. You can only 
give out money in restitution if there is a statute that 
authorizes you to give out money in restitution. If the 
Department is working in a criminal case where there is 
statutory authority to see that victims of crime receive some 
type of financial compensation, and the Department does it best 
to make sure that victims get that compensation, the Department 
is acting within the law.
    But if the Department is owed a check by a private party, 
the law requires that that check be deposited into the Federal 
Treasury, and if there is no statute that allows them to 
negotiate a restitution agreement or any type of agreement with 
a civil defendant or a criminal defendant, the Department 
cannot do that.
    Mr. Marino. Thank you, sir. My time has expired, and now I 
recognize the gentleman from Michigan, the Ranking Member, Mr. 
Conyers.
    Mr. Conyers. Thank you, Mr. Chairman. I ask unanimous 
consent to place into the record the Congressional Research 
Service memo on the principles associated with monetary relief 
provided as part of financially related legal settlements.
    Mr. Marino. Without objection.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Conyers. I welcome the witnesses, and I am delighted to 
ask the first question to Mr. White to comment if he can on 
some of the remarks of Mr. Larkin that we have noted here, that 
the donations under settlement agreements are rife with 
opportunities for political cronyism, that settlement 
agreements circumvent the constitutional process for 
appropriating taxpayer dollars, and a few others. But were you 
disturbed or in less than full agreement with some of those 
remarks, Mr. White? Professor White?
    Mr. White. I am sorry. Would you mind repeating the 
question?
    Mr. Conyers. Well, I was just going over some of our first 
witness', Mr. Larkin, comments that I wanted to see if you were 
bothered by any of them as I was.
    Mr. White. Well, I certainly disagree. I guess on the 
constitutional point, I think where I could see a reasonable 
debate, to Mr. Frank's point, about particular cy pres 
remedies. But the general concept that in settling litigation 
you try and compensate the victims of the harm and you figure 
out the most effective and direct way of doing that, that is a 
completely uncontroversial principle. So I just think it is 
very farfetched to characterize the Justice Department's 
settlement here as appropriating taxpayer dollars.
    And as far as money being directed to favor groups or to 
left wing groups, I mean, I just do not understand the factual 
basis for that when it is the banks. And I am curious to know 
why we did not ask the lawyers for the banks to come and tell 
us what they are going to do with the money because it is 
really up to them.
    Mr. Conyers. Are foreclosing banks, Professor White, 
usually represented by counsel? Can homeowners in a foreclosure 
generally afford counsel even?
    Mr. White. No, it is a serious problem, and there has been 
research about that as well. There is a study by the Brennan 
Institute for Justice on the number of homeowners who have 
legal counsel in foreclosure, and it is far too few obviously. 
It is also the case that there are many homeowners, like the 
couple in Delaware that was mentioned earlier, who try and deal 
with the banks without help from either housing counselors or 
legal aid lawyers.
    And the evidence is very clear that you get a better result 
not just for the homeowner, but for the bank and the investor 
when you can either get an agreeable workout where the borrower 
pays off their loan perhaps at a lower interest rate or even 
where the homeowner has to surrender their house, sell it in a 
short sale, give a deed in lieu. All of those scenarios 
facilitated by those non-profits is going to save hundreds of 
thousands for each homeowner and for the investors in that 
mortgage loan. So it is just an extremely effective way to use 
these funds to try and compensate the victims of the financial 
fraud.
    Mr. Conyers. Mr. Larkin, could I ask you about the Justice 
Department testimony that it is the banks, not the Department, 
who choose how to allocate their settlement donations? Do you 
think that is an accurate evaluation?
    Mr. Larkin. It may be accurate, but it is utterly 
immaterial. I say ``may'' because I do not have all of the 
agreements here. But I do know if you looked at Title 18, 
Section 2, you will see that it addresses this problem. It 
defines principals under the criminal law. If a particular 
individual takes an act himself, he or she is a principal, and 
if it is a crime, that person is responsible. If an individual 
forces somebody else to do the act rather than do it him or 
herself, the first person is still responsible.
    You cannot evade responsibility by getting somebody else to 
do your work for you. If you force somebody else to do it, you 
are responsible, and that is what is happening here. The 
Department is just telling private lawyers and private parties 
not to give all the money to the United States. They are 
telling them to give some of it to parties who Congress has not 
authorized to receive taxpayer funds. And it does not matter 
who that is. I do not care. No one is allowed to receive it 
unless Congress has authorized it.
    Mr. Conyers. Okay, thank you, sir. One more question, Mr. 
Larkin. You state that NeighborWorks of America funds a network 
of left wing community organizers in the mold of ACORN. I am a 
little offended by that. Do you know that NeighborWorks is 
chartered by Congress?
    Mr. Larkin. Sir, I think if you look you will see I did not 
say that. I quoted Investor's Business Daily as saying that. I 
did not say that. Investor's Business Daily made that 
statement, and I just quoted from what they said in my piece. 
And the problem there is even if it is not true that there is 
anything with ACORN, even if it is not true there is anything 
wrong with any of these organizations, they raise the 
appearance of impropriety. And Congress should be concerned 
about the appearance of impropriety as well as the fact of 
impropriety.
    And it does not matter whether it is a Republican or 
Democratic Administration. No Administration should be free to 
give out money that the Congress has not authorized someone to 
receive.
    Mr. Conyers. Thank you very much. Let me ask Professor 
White about the research consistently demonstrating that 
foreclosure prevention counseling produces better results for 
homeowners who are facing foreclosure or in it, and are 70 
percent more likely to remain current after receiving a 
modification in the National Foreclosure Mitigation Counseling 
Program, who are 3 times more likely than non-counseled 
homeowners to receive a loan modification. Does that comport 
with your experience?
    Mr. White. Yes, absolutely, and there is more than one 
study that has demonstrated that. And I think it is important 
to keep in mind that we still have over 2 million families who 
are either seriously delinquent or in foreclosure now, and 
there are a lot of preventable foreclosures that could be 
prevented.
    And coming back to some points made to the Chair about the 
level of appropriation, I mean, there are plenty of reasons 
that Congress needs to be careful about how much is 
appropriated for various functions. But the fact is, in my 
view, both the legal service organizations representing 
homeowners and the housing counselors could effectively use 
more money than they are receiving from all sources, from 
private, State, Federal. They are underfunded.
    Mr. Conyers. Thank you so much. My time has expired. I 
thank you all.
    Mr. Marino. Ms. Mrose, you stated in your opening that you 
had a discussion with a Mr. Allison.
    Ms. Mrose. That is correct.
    Mr. Marino. Was that a personal discussion that you had, or 
was that information relayed to you?
    Ms. Mrose. That was a filmed interview that lasted an hour, 
and he released it for the public because we are going to use 
excerpts from it in the film.
    Mr. Marino. Okay. And I am assuming you are continuing to 
interview people. Have you interviewed other lending 
institutions to this point?
    Ms. Mrose. I have not interviewed other lending 
institutions. I interviewed Peter Wallison and----
    Mr. Marino. And what does he do?
    Ms. Mrose. Peter Wallison is at the American Enterprise 
Institute, and he was one of the commissioners of the Financial 
Crisis Inquiry Commission.
    Mr. Marino. Have you requested to interview people at 
lending institutions, and have they refused to talk to you?
    Ms. Mrose. We are going to do that, and I am looking 
forward to that.
    Mr. Marino. First of all, before I ask another question, I 
would like to enter a document in the record. It is United 
States Environmental Protection Agency, and it is a memorandum 
concerning guidelines. And I just want to cite a section from 
here, and then the full document will be made a part of the 
record.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        Mr. Marino. ``Cash donations to third parties are not 
permissible. Defendants/respondents may not simply make a cash 
payment to third party conducting a project without retaining 
full responsibility for the implementation or completion of the 
project as this appears to violate the MRA,'' and that is the 
Miscellaneous Relief Act.
    Mr. Frank, what is wrong with having guidelines to explain 
how taxpayer dollars, or fines, or restitution should be 
appropriated?
    Mr. Frank. Well, the guidelines should be implemented by 
Congress given that the executive branch does not have the 
authority to allocate money. But I think guidelines are a good 
thing and are a good way to avoid the potential conflicts of 
interest when the executive branch bleeds into the separation 
of powers by structuring settlements this way.
    Mr. Marino. Mr. Conyers?
    Mr. Conyers. Would you yield? Thank you, sir. Mr. Frank, in 
your written testimony, sir, you describe the Justice 
Department as having unfettered power to structure settlements. 
Were the settling banks represented by counsel in those 
settlement negotiations? Were the banks under any coercion to 
settle as opposed to litigating? And could a Federal court 
award consumer relief provisions had these cases been 
litigated? What are your thoughts about that, sir?
    Mr. Frank. Those are multiple issues.
    Mr. Conyers. Yes.
    Mr. Frank. But certainly the defendants were represented at 
the settlement table, and it is not clear that they did not get 
one over on the Justice Department here by getting the illusion 
of $7 billion that might end up costing them $2 or $3 billion. 
With respect to whether this could happen in a court, I do not 
believe FIRREA, the underlying statute where the allocations 
were made here, would authorize this sort of particular relief 
if it was litigated to judgment, whether a court would approve 
a settlement involving these third party transactions.
    Well, what district courts do is not always what is 
particularly legal, especially in the settlement context where 
they are trying to get cases off of their dockets. And that is 
the experience I have had in the civil context.
    Mr. Conyers. Let me ask you, did the Justice Department 
settlements with Citigroup of Bank of America involve, in your 
view, class action lawsuits in any fashion?
    Mr. Frank. No, those were not class action lawsuits, but 
the underlying principles are the same principles.
    Mr. Conyers. Good. Thank you, Mr. Chairman. I yield back 
any time I may have.
    Mr. Marino. As I said earlier, we are pressed for time to 
get out of this room. I do want to thank all of you for being 
here and testifying. I wish we could have another hour or two 
of hearing from you. Maybe in the future we will have that 
opportunity. And this concludes today's hearing, and, again, 
thank you for attending.
    And without objection, all Members will have 5 legislative 
days to submit additional written questions to the witnesses or 
additional materials for the record.
    This hearing is adjourned.
    [Whereupon, at 12:37 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

   Response to Questions for the Record from Geoffrey Graber, Deputy 
  Associate Attorney General and Director, RMBS Working Group of the 
  Financial Fraud Enforcement Task Force, U.S. Department of Justice, 
                             Washington, DC
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              

       Response to Questions for the Record from Alan M. White, 
           Professor of Law, CUNY School of Law, New York, NY
           
           
           
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              
                               


                                 <all>
</pre></body></html>
